U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Frederick D. Darrington v. United States of America,
S.Ct. No. 20-6840

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 7,
2021, and placed on the docket on January 12, 2021. The government’s response is due on
February 11, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6840
DARRINGTON, FREDERICK D.
USA

DAN GOLDBERG
FEDERAL PUBLIC DEFENDER
FEDERAL PUBLIC DEFENDER
1000 WALNUT SUITE 600
KANSAS CITY, MO 64106
816-471-8282
DAN_GOLDBERG@FD.ORG

